U.S. Department of Labor
                                             EMPLOYEE BENEFITS
                                                                      SECURITY ADMINISTRATION

                      Office of Inspector General—Office of Audit 





                                                                      EBSA COULD STRENGTHEN POLICIES AND 

                                                                      PROCEDURES OVER THE REACT PROJECT





                                                                                               Date: September 30, 2009
                                                                                      Report Number: 05-09-005-12-001
U.S. Department of Labor                                    September 2009
Office of Inspector General
Office of Audit                                             EBSA Could Strengthen Policies and
                                                            Procedures over the REACT Project
BRIEFLY…
Highlights of Report Number: 05-09-005-12-001 to the        WHAT OIG FOUND
Assistant Secretary for Employee Benefits Security.
                                                            EBSA could strengthen policies and procedures over
WHY READ THE REPORT                                         the REACT project to better attain project goals of
                                                            identifying plan sponsors facing severe financial
The Employee Retirement Income Security Act of 1974         hardship or bankruptcy in order to protect any assets of
(ERISA) was enacted to protect pension, health, and         employee benefit plans that are in jeopardy.
other employee benefit plans of American workers.
Currently, there are more than 6 million plans, involving   EBSA has not developed and implemented national
150 million workers and $6 trillion in assets.              policies or procedures to proactively identify potential
                                                            REACT cases prior to a bankruptcy filing. Specifically,
EBSA seeks to focus its enforcement resources on            EBSA has not defined “severe financial hardship” or a
areas that have the greatest impact on the protection of    standard method of assessing a plan sponsor’s
plan assets and participants' benefits. As part of its      financial condition in identifying potential REACT cases.
efforts to accomplish this goal, EBSA has identified five
national enforcement projects: Employee Contributions       EBSA does not have a comprehensive method for
Project, Health Fraud/Multiple Employer Welfare             measuring the desired activities and outcomes of the
Arrangements, Employee Stock Ownership Plans,               REACT project, and does not perform a national
Consultant/Adviser Project, and Rapid ERISA Action          assessment to judge the value of the REACT project in
Team (REACT).                                               meeting its overall enforcement mission. EBSA either
                                                            does not document information needed to assess all
In the REACT project, EBSA aims to respond in an            REACT project goals or has not defined or implemented
expedited manner to protect the rights and benefits of      measures to determine how well these goals are being
plan participants when the plan sponsor faces severe        accomplished or their value to the REACT project.
financial hardship or bankruptcy and the assets of the
employee benefit plan are in jeopardy. Under REACT,         WHAT OIG RECOMMENDED
when a company has declared bankruptcy, EBSA’s
goal is to take immediate action to (1) ascertain whether   We recommended the Assistant Secretary for
there are plan contributions which have not been paid       Employee Benefits Security require EBSA to
to the plans' trust, (2) advise all affected plans of the   (1) develop more specific guidance for proactively
bankruptcy filing, and (3) provide assistance in filing     targeting REACT cases based on severe financial
proofs of claim to protect the plans, the participants,     hardship, (2) establish a performance measure(s) to
and the beneficiaries. EBSA also attempts to identify       accurately capture the REACT project’s impact, and
the assets of the responsible fiduciaries and evaluate      (3) develop an overall REACT project assessment that
whether a lawsuit should be filed against those             incorporates the regional assessments to determine
fiduciaries to ensure that the plans are made whole and     whether the project is accomplishing its goal.
the benefits secured.
                                                            EBSA disagreed with many of our audit conclusions
WHY OIG CONDUCTED THE AUDIT                                 and defended their current practices. They did,
                                                            however, agree to take several actions aimed at
The OIG conducted a performance audit of EBSA’s             addressing most of our recommendations. For example,
REACT project. The audit was designed to answer the         EBSA proposed to (1) establish a list of criteria that
following question: Is EBSA’s REACT project                 regions should consider when determining whether a
accomplishing its goal?                                     company is experiencing “severe financial hardship,”
                                                            and (2) conduct an overall REACT project assessment
READ THE FULL REPORT                                        starting in fiscal year 2010.

To view the report, including the scope, methodology,
and full agency response, go to:

http://www.oig.dol.gov/public/reports/oa/2009/
05-09-005-12-001.pdf
                                                      U.S. Department of Labor – Office of Inspector General 




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1


Results In Brief .............................................................................................................. 2


Objective 1 — Is EBSA’s REACT project accomplishing its goal?........................... 3

         Finding 1 - EBSA’s REACT project was not accomplishing its stated goal ........ 3
	
         Finding 2 - EBSA did not effectively measure the results or value of the 

            REACT project ................................................................................................ 6
	

Recommendations ........................................................................................................ 8


Appendices
         Appendix A Background ..................................................................................... 15
	
         Appendix B Objective, Scope, Methodology, and Criteria .................................. 17
	
         Appendix C Acronyms and Abbreviations .......................................................... 21
	
         Appendix D EBSA Response to Draft Report ..................................................... 23
	
         Appendix E Acknowledgements ......................................................................... 28
	




                                                                                                EBSA REACT Project
                                                                                         Report No. 05-09-005-12-001
          U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                                          EBSA REACT Project
                                   Report No. 05-09-005-12-001
                                     U.S. Department of Labor – Office of Inspector General 



U.S. Department of Labor                Office of Inspector General
                                        Washington, D.C. 20210




September 30, 2009

                        Assistant Inspector General’s Report



Phyllis C. Borzi
Assistant Secretary
 for Employee Benefits Security
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

The Office of Inspector General conducted a performance audit of the Department of
Labor’s (DOL) Employee Benefits Security Administration’s (EBSA) Rapid ERISA Action
Team (REACT) project. EBSA protects the integrity of pensions, health plans, and other
employee benefit plans for more than 150 million Americans.

EBSA seeks to focus its enforcement resources on areas that have the greatest impact
on the protection of plan assets and participants' benefits. To accomplish this goal,
EBSA has identified certain national enforcement projects in which field offices are to
place particular investigative emphasis. The REACT project is one of those projects.
Through REACT, EBSA aims to respond in an expedited manner to protect the rights
and benefits of plan participants when the plan sponsor faces severe financial hardship
or bankruptcy and the assets of the employee benefit plan are in jeopardy.

The audit objective was to determine if EBSA’s REACT project was accomplishing its
stated goal of identifying and responding quickly to protect the rights and benefits of
plan participants; and doing so when a plan sponsor faces severe financial hardship or
bankruptcy and the assets of the employee benefit plan are in jeopardy.

The audit covered current EBSA practices, policies, and procedures. We conducted
interviews with the National REACT Coordinator, the Regional REACT Coordinators,
various Regional Directors (RD), and various Deputy Regional Directors to gain an
understanding of the REACT project and how each region operates the project. We
reviewed each region’s Fiscal Year (FY) 2008 Program Operating Plan (POP) to
determine how each region planned to operate the REACT project. In addition, we
reviewed 108 REACT cases closed between October 1, 2006, and February 6, 2009.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence

                                                                             EBSA REACT Project
                                            1                         Report No. 05-09-005-12-001
                                      U.S. Department of Labor – Office of Inspector General 



obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Our objective, scope, methodology, and criteria are detailed in
Appendix B.

RESULTS IN BRIEF

EBSA could strengthen policies and procedures over the REACT project to better attain
project goals of identifying plan sponsors facing severe financial hardship or bankruptcy
in order to protect assets of employee benefit plans that are in jeopardy. Specifically,
policies and procedures could be strengthened to proactively identify REACT cases.

EBSA has not developed and implemented national policies or procedures to
proactively identify potential REACT cases prior to a bankruptcy filing. Specifically,
EBSA has not defined “severe financial hardship” or a standard method of assessing a
plan sponsor’s financial condition in identifying potential REACT cases. As a result,
individual regions interpret this target population differently. EBSA relies heavily on
complaints from plan participants to identify potential REACT cases. While investigation
of complaints received is a valid source, it is reactive, may not provide the most timely
or systematic identification of troubled plans or the highest risk cases, and may reduce
EBSA’s ability to fully recover unpaid plan assets.

EBSA does not have a comprehensive method for measuring the desired activities and
outcomes of the REACT project, and does not perform a national assessment to judge
the value of the REACT project in meeting its overall enforcement mission. EBSA
measures each national enforcement project, including REACT, using the same
measure it uses under the Government Performance and Results Act of 1993 (GPRA)
for its overall enforcement mission — cases closed with corrected fiduciary violations as
a percentage of all closed cases. This does not measure three specific REACT goals
related to bankruptcy — (1) immediately identifying any unpaid plan contributions;
(2) notifying all affected plans of the bankruptcy filing, and (3) providing assistance to
plans, participants, and beneficiaries in filing “proofs of claim.” EBSA either does not
document information needed to assess these goals or has not defined or implemented
measures to determine how well these goals are being accomplished or their value to
the REACT project.

We recommended the Assistant Secretary for Employee Benefits Security require
EBSA to (1) develop more specific guidance for proactively targeting REACT cases
based on severe financial hardship, (2) establish a performance measure(s) to
accurately capture the REACT project’s impact, and (3) develop an overall REACT
project assessment that incorporates the regional assessments to determine whether
the project is accomplishing its goal. In response to our draft report, EBSA disagreed
with many of our audit conclusions and defended their current practices. They did,
however, agree to take several actions aimed at addressing most of our
recommendations. EBSA’s written response to our draft report is provided in its entirety
in Appendix D.



                                                                        EBSA REACT Project
                                            2                    Report No. 05-09-005-12-001
                                       U.S. Department of Labor – Office of Inspector General 



RESULTS AND FINDINGS

Objective 1 — Is EBSA’s REACT project accomplishing its goal?

No. EBSA’s REACT project was not accomplishing its stated goal. In addition, EBSA did
not effectively measure the results or value of the REACT project.

Finding 1 - EBSA’s REACT project was not accomplishing its stated goal

EBSA’s REACT project was not accomplishing all parts of its stated purpose.
Specifically, it was not proactively targeting plan sponsors for REACT investigations
prior to a bankruptcy filing.

According to EBSA, it has

       … targeted populations of plan participants who are potentially exposed to
       the greatest risk of loss.…The REACT project … enables EBSA to
       respond in an expedited manner to protect the rights and benefits of plan
       participants when the plan sponsor faces severe financial hardship or
       bankruptcy and the assets of the employee benefit plan are in jeopardy.

The REACT project began in FY 2001, and the project’s goals are to identify two
populations of interest — (1) plan sponsors with severe financial hardship and (2) plan
sponsors in bankruptcy. While bankruptcy is an extreme level of financial hardship,
indications of severe financial hardship may precede a plan sponsor’s decision to file for
bankruptcy protection. The project should emphasize identifying at risk plans as early as
possible.

At the beginning of the project, EBSA’s National Office provided general REACT
guidelines to the regions. It stated “the REACT project is designed to target plans which
may not be otherwise protected in bankruptcy proceedings and, thereby, potentially
expose plan participants to harm. Consequently, the regions need to identify targets
where the participants appear to be most vulnerable.” However, EBSA did not provide
any definition or criteria to determine vulnerability. The regions were to exercise
prudence to determine which cases to open. No further targeting guidance was offered.

A desire to target specific employee benefit plans for enforcement scrutiny implies a
proactive effort to identify plans that possess selected characteristics. In the case of the
REACT project, EBSA’s stated aim was to identify employee benefit plans whose
assets may have been at risk because of the sponsor’s “severe financial hardship” or
because the sponsor had filed for bankruptcy protection. In such situations, according to
EBSA, it is common to find employers holding assets which belong to or are owed to
plans. While REACT cases include both companies in financial hardship and those filing
for bankruptcy, few cases were initiated as a result of proactive efforts by EBSA. Of the
2,389 REACT cases that EBSA had initiated through February 6, 2009, almost half (46
percent) were initiated by a referral from one of EBSA’s Benefit Advisors (BA). These


                                                                         EBSA REACT Project
                                             3                    Report No. 05-09-005-12-001
                                        U.S. Department of Labor – Office of Inspector General 



referrals were not the result of original work performed by the BAs to identify financially
troubled or bankrupt plan sponsors. Rather, these plan sponsors come to the attention
of the BAs through complaints from employees, service providers, plan administrators,
or bankruptcy trustees. As shown in the following chart, only 10 percent of REACT
cases were initiated as a result of a proactive effort by EBSA (i.e., review of media
reports).


                                 Sources for REACT Cases


                              Other
                             Sources
                             25.45%

                                                                EBSA Benefit
                                                               Advisor Referral
                Other Region                                       46.30%
                Initiated Case
                     8.71%


                     Bankruptcy Court
                         Referral
                         9.25%                EBSA Review of
                                               Media Reports
                                                 10.30%


Source: EBSA EMS Database, all REACT cases as of February 6, 2009

Without a strong proactive effort, EBSA had no assurance that these sources identify
the highest risk plans in the timeliest manner for its review. Furthermore, REACT
becomes a means of classifying investigative cases rather than a targeting tool.

EBSA’s National Office had not provided regional offices with criteria or a methodology
to assess a sponsor’s financial condition or a definition of what circumstances might
indicate “severe financial hardship.” According to EBSA officials, they had not
developed a national standard because they felt it would limit individual regional
discretion. As a result in FY 2008, two regions initiated REACT cases only when a plan
sponsor had filed for bankruptcy. The other eight regions implemented definitions of
“severe financial hardship” that varied in content and lacked quantifiable standards.
Examples of regional definitions included:

      A corporation that does not have sufficient cash flow to meet its fixed financial
       obligations. (Region 1)
      A company that has no money, but has not filed for bankruptcy. (Region 3)
      A company about which some kind of negative financial information is disclosed.
       (Region 7)


                                                                             EBSA REACT Project
                                               4                      Report No. 05-09-005-12-001
                                                  U.S. Department of Labor – Office of Inspector General 



      	 A company that is unable to meet its employee benefit obligations or whose plan
         will be negatively impacted as a result of the company’s financial condition.
         (Region 10)

None of these definitions contained sufficient detail to allow regional personnel to
consistently identify potential REACT cases based on severe financial hardship of the
plan sponsor. Development of national guidance on identifying plan sponsors in severe
financial hardship would reduce the subjectivity and variability of these judgments
across and within EBSA regions. Also, establishing a framework would assure
consistency and still allow regional flexibility and professional judgment. Therefore, the
ability to initiate a REACT case based on severe financial hardship would be clearer.

The broad discretion that regions had in selecting REACT cases also inhibited the
implementation of best practices. For example,

      	 One region held outreach seminars to inform various professional groups about
         EBSA’s enforcement interest in financially distressed plan sponsors.
      	 One region designated “region watchers” to review newspapers, business
         journals, and search the Internet for news in one of the nine regional geographic
         areas.
      	 One region developed a Targeting Committee that met quarterly to determine if
         the region was targeting the right plans, if new areas should be targeted, and if
         the region was on target with the number of investigations opened.
      	 One region arranged to receive a weekly listing of new Chapter 7 bankruptcy
         filings from the Bankruptcy Court in its area.

National Office staff indicated that best practices are shared through conference calls
and EBSA’s intranet site. However, EBSA does not mandate implementation of best
practices, they are only suggestions. This seems contrary to the concept of “best
practice.”

According to a National REACT Coordinator ”progress check1,” as of March 31, 2009,
multiple regions fell short of REACT project expectations. One region had not closed a
REACT case during the first six months of the fiscal year. All regional offices were
supposed to reach out to U.S. Bankruptcy Trustees as a source for potential REACT
case leads. However, one REACT Coordinator was unaware of this.

Although each region designated a REACT Coordinator to facilitate project activities,
EBSA had not provided any formal REACT training to these individuals since the
project’s inception in 2001. A majority of the regions rotate the REACT Coordinator
position, on average, every 2-3 years. Current REACT Coordinators indicated they were
trained by their predecessors. One region did create an in-house training binder for new
REACT Coordinators.


1
    A “progress check” is an informal performance appraisal that identifies where improvements can be made.

                                                                                          EBSA REACT Project
                                                          5                        Report No. 05-09-005-12-001
                                                  U.S. Department of Labor – Office of Inspector General 



Because of the lack of structured criteria to operate the REACT project, EBSA was not
accomplishing all of the project’s goals, and EBSA may not have identified the highest
risk plans or initiated timely action to protect participants’ and beneficiaries’ benefits.

Finding 2 - EBSA did not effectively measure the results or value of the REACT
            project

EBSA did not have a comprehensive method for measuring the desired activities and
outcomes of the REACT project, and did not perform a national assessment to judge
the value of the REACT project in meeting its overall enforcement mission.

EBSA measured REACT project performance using the same measure it used under
GPRA for its overall enforcement mission — cases closed with corrected fiduciary
violations as a percentage of all closed cases. This did not measure EBSA’s ability to
timely identify and protect plan assets at risk because of a plan sponsor’s financial
problems. EBSA either did not document information needed to assess all REACT
project goals or did not define or implement measures to determine how well some
goals were being accomplished.

Not all efforts to identify and protect plan assets at risk because of the financial
condition of the plan sponsor result in a REACT case being opened. For example,
Regional REACT Coordinators spent, on average 2-4 hours a week, reviewing
Creditor’s Edge2, searching the Internet, and reading/listening to media reports to
identify financially troubled companies. After identification of a financially troubled
company in their region, the Coordinator conducted preliminary steps to determine
whether assets related to an employee benefit plan were at risk. Actions included:

        determining if the company had a benefit plan, 

        reviewing the Form 5500 Annual Return/Report of Employee Benefit Plan, 

        reviewing the Technical Assistance Inquiry System (TAIS)3 for complaints, 

        reviewing Public Access to Court Electronic Records (PACER)4, and 

        contacting the company or plan administrator to determine the status of the plan. 


If the Coordinator confirmed that no employee benefit plan assets were at risk, no
REACT case would be initiated. Since EBSA’s performance measure is based on
closed REACT cases, these efforts were not included in the project’s performance
measure.

In addition to measuring the percentage of cases closed with fiduciary violations,
EBSA’s National Office used several quantitative measures to internally assess
REACT’s performance nationally and regionally. These include the number of cases
2
  Creditor’s Edge is a weekly newsletter that scans over 60 business publications each week while searching the 

Internet for companies nationwide that are having some sort of financial difficulty. 

3
  TAIS is a computer database for inquiries and complaints that might come from Congressional offices, participants 

in plans, or other callers. 

4
  PACER is a website that allows users to obtain case and docket information from Federal Appellate, District and 

Bankruptcy courts, and the U.S. Party/Case Index.
	

                                                                                           EBSA REACT Project
                                                          6                         Report No. 05-09-005-12-001
                                                   U.S. Department of Labor – Office of Inspector General 



opened, the number of cases closed, the number of cases closed with results, cases
forwarded for litigation, staffing level, and time spent on a case. An aggregate of these
figures allow EBSA to monitor how the REACT project is performing compared to the
other national projects. Standardized quarterly reports and graphs are generated and
provided to all the regions. These reports allow the RDs to assess the results of the
projects.

However, while a goal of the REACT project is to “respond in an expedited manner” and
“take immediate action” when plan sponsors declare bankruptcy, EBSA does not
measure the timeliness of REACT case openings or related investigative actions. Plans
whose sponsor had filed for bankruptcy protection made up one of the target groups in
the REACT project. Due to the tight time frames and the intricacies of bankruptcy laws,
plan assets and employee benefits are often lost because of the plan fiduciaries' failure
to timely identify pension plan contributions that have not been paid to the plan's trust.
Therefore, when a plan sponsor files for bankruptcy protection, EBSA’s REACT project
aims to (1) take immediate action to ascertain whether there are plan contributions
which have not been paid to the plans' trust, (2) advise all affected plans of the
bankruptcy filing, and (3) provide assistance in filing proofs of claim to protect the plans,
the participants, and the beneficiaries. However, neither the current performance
measure (closed cases with fiduciary results), nor any other individual quantitative
measure used by EBSA, demonstrate whether these goals were being accomplished.

EBSA’s REACT project has protected and restored plan assets. We reviewed 108 of
359 closed REACT cases that had been closed between October 1, 2006, and
February 6, 2009. Of these closed cases, 75 cases (69 percent) were closed with a
monetary recovery totaling $72,488,481. Of that amount, $53,072,755, nearly 75%, of
the assets recovered by EBSA were from one case. Seven cases were closed with
better than $1,000,000; and one case closed with more than $2,000,000 recovered.
Only four of the closed REACT cases reviewed showed unrecovered assets totaling
$522,275.

Each REACT investigative file contained (1) TAIS printout(s), (2) EBSA’s Enforcement
Management System (EMS) tabs5, (3) Report of Investigation, (4) Report of Interview(s)
with key individuals, (5) bankruptcy documents (e.g., bankruptcy filing(s), proofs of
claim, etc.), and (6) recovery package (if applicable). However, the files lacked evidence
to demonstrate the timing of (i.e. immediacy) actions taken to ensure all plan
contributions were paid to the plans’ trust.

The REACT files did contain documentation supporting EBSA contacting and working
with plan sponsors and supporting proof of claim filings, but the overall effect of EBSA’s
assistance could not be determined. EBSA has not defined or implemented measures
to determine how well these goals are being accomplished or their value to the REACT
project. Monetary recovery is not guaranteed when a proof of claim is filed.



    EMS tabs – Case opening and closing, monetary results, violations, etc.
5



                                                                                     EBSA REACT Project
                                                           7                  Report No. 05-09-005-12-001
                                      U.S. Department of Labor – Office of Inspector General 



Finally, EBSA did not have a national REACT assessment. EBSA only measured the
project’s performance in each region, incorporating statistical data (such as cases
opened and closed), and the National Office Coordinator’s knowledge of the project in
each region. The National REACT Coordinator spoke individually to each Regional
Coordinator at least twice a year. The National REACT Coordinator used these calls to
assess the region’s performance and gain a deeper understanding of how the project
works. However, the evaluations did not demonstrate if the REACT project was
accomplishing its goals at a national level.

Recommendations

We recommend that the Assistant Secretary for Employee Benefits Security:

   1. Strengthen standard policies and/or procedures for the REACT project to create
      consistency among all the regional offices. Specifically,

          a. establish 	 a definition of and a methodology for assessing “severe financial
               hardship;”
          b. implement recurring REACT training and/or create a training manual for
               REACT Coordinators;
          c. 	 assure REACT Coordinators routinely communicate with and obtain
               information from U.S. Bankruptcy Trustees;
          d. implement new and unique procedures determined to be “best practices”
               across all regions; and
          e. 	 require the investigators to document when and how they have advised all
               affected plans of the bankruptcy filing.

   2. Establish a performance measure(s) to accurately capture the REACT project’s
      impact — specifically measure the results of the preliminary research the REACT
      Coordinators perform on bankrupt companies.

   3. Develop an overall REACT project assessment that incorporates the regional
      assessments to determine whether the project is accomplishing its goal.

EBSA RESPONSE

In its response to our draft report, EBSA disagreed with many of our audit conclusions
and defended their current practices. They did, however, agree to take several actions
aimed at addressing most of our recommendations.

EBSA maintained that it initiated REACT cases through several proactive methods not
acknowledged in the audit report. In addition to computer targeted cases, EBSA
reasoned that referrals from the bankruptcy courts and the complaints made to the BAs
should be considered proactive cases because they resulted from time EBSA personnel
had spent (a) developing cooperative relationships with other oversight entities and
(b) educating participants about ERISA requirements.


                                                                        EBSA REACT Project
                                            8                    Report No. 05-09-005-12-001
                                        U.S. Department of Labor – Office of Inspector General 




Furthermore, EBSA disagreed that complaints do not provide timely or systematic
identification of plans in jeopardy. EBSA stated that BA referrals based on plan
participant complaints are one of the best sources to identify high risk plans because
participants have first-hand knowledge of the plan sponsor’s financial condition and
information that may not be available to EBSA in a timely manner. For example, since
privately-held companies are not required to publicly file financial information, EBSA
would not know if such a plan sponsor was facing severe financial hardship except
through a plan participant complaint or bankruptcy filing.

EBSA believes that establishing a fixed definition of “severe financial hardship” would
unduly constrain RDs’ discretion to target areas of risk within their respective
jurisdictions, to the significant detriment of the project. EBSA contended that the
definitions provided by the regional REACT coordinators represent a general
understanding of the term and that the lack of a formal definition has not resulted in any
investigations improperly being coded as REACT. However, recognizing the need for a
degree of uniformity in implementing the project, EBSA agreed to establish a list of
criteria that regions should consider when determining whether a company is
experiencing “severe financial hardship.”

EBSA stated that REACT Coordinators receive recurring and extensive training through
a variety of means, including in-depth teleconferences conducted by the National
REACT Coordinator, specific guidance issued by the National Office and made
available on EBSA’s intranet site, training workshops as needed, and ad hoc
communication with the National REACT Coordinator on individual technical and
procedural issues. EBSA agreed to continue providing recurring training and to
consolidate this information into a manual for use in training new REACT Coordinators.

EBSA provided information from the U.S. Government Accountability Office in
reasoning that best practices should not be mandated. EBSA paraphrased GAO’s
caution that before implementing wholesale changes to emulate best practices, it is
important for an organization to understand the similarities and differences between its
own setting and the context from which the best practice was taken. EBSA stated that it
would continue to identify and share best practices among the regions, while allowing
RDs to retain discretion with respect to implementing best practices based on an
understanding of their region. It will also continue to include “utilization of best practices”
as part of its evaluation of each field office’s performance.

EBSA disagreed that it is not effectively measuring the results or value of the REACT
project. EBSA stated that it had spent more than 10 years attempting to create a pure
outcome measure for its enforcement programs and that such a measure has been
difficult to create. EBSA explained that its measures focus on investigative outcomes,
such as whether fiduciary violations were found and corrected, rather than investigative
steps such as the timeliness of investigative actions. Furthermore, EBSA stated that it
was not possible to create a measurement that would capture the REACT Coordinators’
preliminary research that does not result in case openings. EBSA stated that the


                                                                           EBSA REACT Project
                                               9                    Report No. 05-09-005-12-001
                                     U.S. Department of Labor – Office of Inspector General 



accepted GPRA measure already reflects, to some degree, the value of preliminary
research in identifying fiduciary breaches.

EBSA agreed that it would be beneficial to develop a formal REACT project
assessment. EBSA will conduct an overall REACT project assessment, which takes into
account the regional project assessments starting in fiscal year 2010.


OIG CONCLUSION

We continue to conclude that the REACT program would benefit from a greater
emphasis on and clearer guidance for proactively identifying employee benefit plans
whose sponsors are in “severe financial hardship.” EBSA cites computer targeted cases
as a proactive methodology. However, in our audit universe of 2,389 REACT cases,
EBSA opened only 42 cases (1.76 percent) based on its computer targeting.

EBSA also disagreed that “complaints do not provide timely or systematic identification
of plans in jeopardy.” However, participant complaints are the result of knowledge,
criteria, and judgment unique to the complainant. Under a specific set of circumstances,
different individuals may take different periods of time to reach the same or different
conclusions about their plan’s risk. Even if they perceive a risk to exist, they may
choose not to file a complaint. Therefore, we do not see how participant complaints can
be viewed as a timely or systematic means of identifying plans in jeopardy. We continue
to recommend that EBSA develop a standardized criteria and methodology that its
personnel can use to identify potentially high risk plan sponsors based on indicators of
severe financial hardship.

While EBSA points out that that the lack of a formal definition has not resulted in any
investigations improperly being coded as REACT, the audit did not draw that conclusion
nor cite that as a deficiency.

We acknowledge that new procedures and techniques should be fully evaluated before
being labeled as “best practices” and implemented program-wide. This would include
assessing how regional differences impact the usefulness of the practice. However, an
RD’s discretion must be balanced by the responsibility of EBSA’s National Office to
guide and manage the project nationally. Sharing, evaluating, and implementing best
practices should involve and be directed by EBSA’s National Office. A region’s decision
not to implement a procedure deemed to be a “best practice” should be justified and
agreed to by the National Office.

Performance measures must evaluate all aspects of a program. We do not agree with
EBSA’s argument that it cannot quantify or determine the outcome of REACT
Coordinator activities that do not result in a case opening. If a REACT Coordinator
conducts limited research about a plan sponsor who is believed to be in severe financial
hardship and determines that the employee plan assets are fully accounted for and
safeguarded, no case would be opened. But, that effort should be measured and reflect


                                                                       EBSA REACT Project
                                           10                   Report No. 05-09-005-12-001
                                     U.S. Department of Labor – Office of Inspector General 



favorably on the value of the project. In contrast, if measures show that only a small
percentage of plans that undergo this initial review develop into investigative cases,
initial targeting methods may require adjustment or the overall value of the project may
be questioned. Measuring only efforts expended in cases opened prevents an effective
assessment of the overall project.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                                       EBSA REACT Project
                                           11                   Report No. 05-09-005-12-001
          U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                                            EBSA REACT Project
               12                    Report No. 05-09-005-12-001
               U.S. Department of Labor – Office of Inspector General 





Appendices 





                                                 EBSA REACT Project
                    13                    Report No. 05-09-005-12-001
          U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                                            EBSA REACT Project
               14                    Report No. 05-09-005-12-001
                                       U.S. Department of Labor – Office of Inspector General 



                                                                               Appendix A
Background

The Employee Retirement Income Security Act of 1974 (ERISA) was enacted to protect
pension, health, and other employee benefit plans of American workers. Currently, there
are more than 6 million plans, involving 150 million workers and $6 trillion in assets.

Administration of ERISA is divided among the Employee Benefit Security Administration
of the U.S. Department of Labor (EBSA), the Internal Revenue Service of the
Department of the Treasury (IRS), and the Pension Benefit Guaranty Corporation
(PBGC). EBSA is responsible for enforcing the fiduciary, reporting, and disclosure
provisions of ERISA. The IRS assures that pension, profit sharing, and stock-bonus
plans meet requirements for established tax benefits. The PBGC provides insurance
coverage for defined benefit pension plans.

In pursuing its mission, EBSA uses a combination of compliance assistance, voluntary
compliance, and enforcement. Enforcement actions, both civil and criminal, are
intended to deter and correct violations of ERISA and ensure workers receive promised
benefits. EBSA’s approximately 400 investigators rely on participant complaints,
computer analyses, published news reports, and referrals from other government
agencies to identify and initiate cases. Areas of emphasis are established through a
series of national and regional projects contained in annual Program Operating Plans
(POP). Each region determines the distribution of its enforcement resources among
these projects. With more than 8,000 plans under its authority for every 1 investigator, it
is critical that EBSA direct its limited resources at areas with the most impact.

EBSA seeks to focus its enforcement resources on areas that have the greatest impact
on the protection of plan assets and participants’ benefits. To accomplish this goal,
EBSA has identified five national enforcement projects, in which field offices are to
place particular investigative emphasis. The five National Projects are Employee
Contributions Project, Health Fraud/Multiple Employer Welfare Arrangements,
Employee Stock Ownership Plans, Consultant/Adviser Project, and Rapid ERISA Action
Team (REACT).

In the REACT project, which began in Fiscal Year (FY) 2001, EBSA aims to respond in
an expedited manner to protect the rights and benefits of plan participants when the
plan sponsor faces severe financial hardship or bankruptcy and the assets of the
employee benefit plan are in jeopardy. Under REACT, when a company has declared
bankruptcy, EBSA’s goal is to take immediate action to (1) ascertain whether there are
plan contributions which have not been paid to the plans' trust, (2) advise all affected
plans of the bankruptcy filing, and (3) provide assistance in filing proofs of claim to
protect the plans, the participants, and the beneficiaries. EBSA also attempts to identify
the assets of the responsible fiduciaries and evaluate whether a lawsuit should be filed
against those fiduciaries to ensure that the plans are made whole and the benefits
secured.



                                                                         EBSA REACT Project
                                            15                    Report No. 05-09-005-12-001
          U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                                            EBSA REACT Project
               16                    Report No. 05-09-005-12-001
                                     U.S. Department of Labor – Office of Inspector General 



                                                                             Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Our audit was designed to address the following question:

Is EBSA’s REACT project accomplishing its goal?

Scope

DOL OIG audited EBSA’s REACT project, a national enforcement initiative. Through
REACT, EBSA aims to respond in an expedited manner to protect the rights and
benefits of plan participants when the plan sponsor faces severe financial hardship or
bankruptcy and the assets of the employee benefit plan are in jeopardy.

We specifically examined the process of how each of the 10 regions identify (target),
select, and investigate REACT cases. We reviewed REACT cases closed from October
1, 2006, through February 6, 2009.

We performed our fieldwork from March to April 2009 and were on-site at the following
regional offices:

Atlanta, Georgia
Boston, Massachusetts
Chicago, Illinois
Dallas, Texas
Kansas City, Missouri
Los Angeles, California
New York, New York
Philadelphia, Pennsylvania

We obtained and reviewed cases from the Cincinnati and San Francisco regional offices
and performed the reviews at the Chicago office.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

A performance audit includes an understanding of internal controls considered
significant to the audit objective and testing compliance with significant laws,
regulations, and other requirements. In planning and performing our audit, we
considered whether internal controls significant to the audit were properly designed and


                                                                       EBSA REACT Project
                                           17                   Report No. 05-09-005-12-001
                                                 U.S. Department of Labor – Office of Inspector General 



placed in operation. This included reviewing EBSA’s polices and procedures for
administering the REACT project. We confirmed our understanding of these controls
and procedures through interviews, documentation review, and REACT case testing.

Methodology

To accomplish the audit objective, we conducted on-site interviews and teleconferences
with EBSA management and staff responsible for administering the REACT project. We
spoke to the National REACT Coordinator and other officials from EBSA’s National
Office6; four Regional Directors; three Deputy Regional Directors; and 11 Regional
REACT Coordinators. From these interviews, we gained an understanding of the
REACT project and how each region operated it. In addition to interviews, we reviewed
FY 2001 REACT guidance and each region’s FY 2008 POP to gain an understanding of
how each region planned to operate the REACT project.

We evaluated internal controls used by EBSA for reasonable assurance that the
REACT project was accomplishing its goal of identifying and responding quickly to
protect the rights and benefits of plan participants; and doing so when a plan sponsor
faces severe financial hardship or bankruptcy and the assets of the employee benefit
plan are in jeopardy. Our consideration of EBSA’s internal controls for administering the
REACT project would not necessarily disclose all matters that might be reportable
conditions. Because of inherent limitations in internal controls, non-compliance may
nevertheless occur and may not be detected.

In performing the audit, we requested and received EBSA’s Enforcement Management
System (EMS) database of 2,389 REACT cases, as of February 6, 2009. From this
database, 359 cases were closed between October 1, 2006 through February 6, 2009.
During our initial fieldwork, we reviewed 56 of 58 REACT cases, closed during FY 2007
and FY 2008, from the Chicago Regional Office.7 We then determined to review
additional cases from the nine other regions.8 We stratified the remaining 301 closed
cases into 10 categories based on the dollar amount recovered by EBSA (ranging from
$0 to more than $1 million). The samples were drawn from each stratum using a
random number generator. From this population, we randomly selected 52 REACT
cases, closed from October 1, 2006, through February 6, 2009. In total, we reviewed
108 of the 359 closed REACT cases.

In order to determine if the REACT project was identifying and responding quickly to
protect the rights and benefits of plan participants, we reviewed the closed REACT
cases to determine (1) the amount of assets recovered by EBSA or other means (i.e.,
settled in bankruptcy court), (2) if any assets were lost or not recovered, (3) the value of
the REACT case (i.e., assets restored, assets protected, ensured participant rights,

6
  Deputy Assistant Secretary for Program Operations; the Director for the Office of Enforcement; and the Chief for 

the Division of Field Operations. 

7
  The Chicago regional office could not provide the other two cases for our review. 

8
  We were on-site at 8 of the 10 regional offices. REACT cases from the Cincinnati and San Francisco offices were 

sent to Chicago for our review. 


                                                                                          EBSA REACT Project
                                                        18                         Report No. 05-09-005-12-001
                                      U.S. Department of Labor – Office of Inspector General 



etc.), and (4) if there was other information available for EBSA to identify the company's
problems at an earlier date.

We obtained a data file of REACT cases directly from EBSA and determined it to be
sufficient and appropriate to provide a reasonable basis for our findings and conclusions
within the context of our objective. Since we are not making any projections from our
audit sample, we did not independently confirm that the file contained all REACT cases
for our audit period. Since all REACT cases are inputted into EBSA’s EMS, we do not
know of any practical way to independently confirm the completeness of the data file.

Criteria

We used the following criteria to accomplish our audit:

    EBSA’s    Enforcement Manual




                                                                        EBSA REACT Project
                                            19                   Report No. 05-09-005-12-001
          U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                                            EBSA REACT Project
               20                    Report No. 05-09-005-12-001
                                  U.S. Department of Labor – Office of Inspector General 



                                                                          Appendix C
Acronyms and Abbreviations

BA Benefit              Advisor

DOL              Department of Labor

EBSA             Employee Benefits Security Administration

EMS              Enforcement Management System

ERISA Employee             Retirement Income Security Act of 1974

FY Fiscal              Year

GPRA             Government Performance and Results Act of 1993

OIG              Office of Inspector General

PACER            Public Access to Court Electronic Records

POP              Program Operating Plan

RD Regional               Director

REACT            Rapid ERISA Action Team

TAIS             Technical Assistance Inquiry System




                                                                    EBSA REACT Project
                                       21                    Report No. 05-09-005-12-001
          U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                                            EBSA REACT Project
               22                    Report No. 05-09-005-12-001
                                U.S. Department of Labor – Office of Inspector General 



                                                                        Appendix D
EBSA Response to Draft Report




                                                                  EBSA REACT Project
                                     23                    Report No. 05-09-005-12-001
U.S. Department of Labor – Office of Inspector General 





                                  EBSA REACT Project
     24                    Report No. 05-09-005-12-001
U.S. Department of Labor – Office of Inspector General 





                                  EBSA REACT Project
     25                    Report No. 05-09-005-12-001
U.S. Department of Labor – Office of Inspector General 





                                  EBSA REACT Project
     26                    Report No. 05-09-005-12-001
U.S. Department of Labor – Office of Inspector General 





                                  EBSA REACT Project
     27                    Report No. 05-09-005-12-001
U.S. Department of Labor – Office of Inspector General 





                                  EBSA REACT Project
     28                    Report No. 05-09-005-12-001
                                    U.S. Department of Labor – Office of Inspector General 



                                                                            Appendix E
Acknowledgements
Key contributors to this report were Charles Allberry (Audit Director), Michael
Kostrzewa, Michael Elliott, Lisa LaRosa, Robert Slattery, Wilma Perez, and Kathleen
Mitomi.




                                                                      EBSA REACT Project
                                          29                   Report No. 05-09-005-12-001
          U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                                            EBSA REACT Project
               30                    Report No. 05-09-005-12-001
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online: http://www.oig.dol.gov/       hotlineform.htm
Email: hotline@         oig.dol.gov

Telephone:    1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210
